U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jones v. United States, No. 20-6841
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021, and was placed on the Court’s docket on January 12, 2021. The response of the United
States is now due, after one extension, on March 15, 2021. We respectfully request, under Rule
30.4 of the Rules of this Court, a further extension of time to and including April 14, 2021,
within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

2 0- 6 8 4 1
J O N E S, S T E V E N
US A

P A T RI CI A V A N E S S A K E M P
F E D E R A L D E F E N D E R S S O U T H E R N DI S T RI C T
OF AL A B A M A
RS A T O WE R
11 N O R T H W A T E R S T R E E T
S T E. 1 1 2 9 0
M O BI L E, A L 3 6 6 0 2
251433010

